                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION

Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: MORE THAN $1.3 BILLION IN
                                                UNEMPLOYMENT INSURANCE MODERNIZATION
                                                INCENTIVE PAYMENTS ARE UNLIKELY TO BE
                                                CLAIMED BY STATES


                                                This audit was performed by WithumSmith+Brown PC, CPA’s, under contract to the
                                                Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                                Inspector General.



                                                                       ______________________________
                                                                       Assistant Inspector General for Audit 





                                                                                 Date Issued:         September 30, 2010
                                                                              Report Number:            18-10-012-03-315
U.S. Department of Labor                                     September 2010
Office of Inspector General
Office of Audit                                              RECOVERY ACT: MORE THAN $1.3 BILLION IN
                                                             UNEMPLOYMENT INSURANCE
                                                             MODERNIZATION INCENTIVE PAYMENTS ARE
BRIEFLY…                                                     UNLIKELY TO BE CLAIMED BY STATES
Highlights of Report Number: 18-10-012-03-315, to the
Assistant Secretary for Employment and Training.             WHAT OIG FOUND
                                                             The OIG found that approximately $4 billion of the $7
WHY READ THE REPORT                                          billion in modernization funds has not yet been applied
Congress enacted the American Recovery and                   for, and that at least $1.3 billion of the $4 billion is
Reinvestment Act of 2009 (Recovery Act), to promote          unlikely to be applied for by the states. States cited
economic recovery and assist those impacted by the           increased costs for benefit payments and the political
recession. The Recovery Act set aside $7 billion from        difficulty of making the required changes to state laws
the Federal Unemployment Account (FUA), to be used           as the primary reasons they would not apply. Of the $3
for Unemployment Insurance (UI) benefit payments for         billion that has been received by the states,
states whose UI laws meet or are changed to meet             approximately $2 billion has already been spent on
Recovery Act criteria intended to expand                     benefit payments. Most of the states that received
unemployment benefits permanently. The Act also              modernization incentive payments under the Recovery
provided $500 million in administrative grants to assist     Act were not able to provide data regarding claimants’
states in their UI operations in such areas as upgrading     payments under the new provisions enacted in state
computer systems and efficiency measures.                    laws, but those that could quantify the data reported to
                                                             us approximately 59,000 claimants were paid $98
WHY OIG CONDUCTED THE AUDIT                                  million. We also found that at least $399 million of the
The Office of Inspector General (OIG) conducted an           states’ administrative grant funds remains unexpended,
audit to determine the status of the $7 billion of           with a significant number of states planning multi-year
incentive payments, which states had to apply for in         systems improvements. States representing $39 million
order to receive their share; as well as the status of the   of the $500 million in administrative grant funds
$500 million in administrative grants, which the states      reported to us they did not have plans in place to spend
automatically received. Specifically, our audit objectives   those funds.
were to answer the following questions:
                                                             WHAT OIG RECOMMENDED
  (1) Did states that received UI modernization              To better ensure more than $1 billion of Recovery Act
  incentive payments make benefit payments to                funds are put to best use, we recommended the
  claimants who met the new eligibility requirements as      Assistant Secretary for Employment and Training (1)
  enacted in state law?                                      keep Congress informed on the status of unused funds,
                                                             and as appropriate, make recommendations to the
  (2) Did states that have received incentive payments       Secretary to work with Congress to reinstate those
  but have not yet implemented UI modernization              funds into the FUA, and( 2) request detailed spending
  incentive provisions, have implementation plans,           plans from the states for the $500 million of
  including projected costs, timeframes, and                 administrative funds, and provide assistance, as
  anticipated challenges?                                    appropriate, to help ensure these funds are spent as
                                                             intended.
  (3) Why did states not apply for the modernization
  funds?                                                     ETA advised against including state-specific information
                                                             in the report, citing concerns the information could
  (4) What is the status of the $7 billion of
	              change, and internal negotiations regarding the funds
  modernization funds established by Congress? 
             could be disrupted by the public disclosure. ETA
                                                             supports our recommendation that unused funds
  (5) What is the status of the $500 million in 
            become unrestricted in the FUA account, but
  administrative grants to states.
	                         recommends this occur on October 1, 2011, as
                                                             provided by the Recovery Act. Given the
READ THE FULL REPORT                                         unprecedented level of transparency called for by the
To view the report, including the scope, methodologies,      Recover Act, the OIG believes disclosure of
and full agency response, go to:                             state-specific information is necessary and appropriate.
http://www.oig.dol.gov/public/reports/oa/2010/18-10-         We continue to believe the more than $1 billion in
012-03-315.pdf.                                              Recovery Act funds unlikely to be used by states could
                                                             be better used to help off-set the cost of government
                                                             borrowing.
                                                                 Prepared by WithumSmith+Brown PC
                                        For the U. S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditors’ Report...................................................................................... 1 


Results in Brief .............................................................................................................. 2
	

Objective 1 — Did states that received UI modernization incentive payments 

              make unemployment compensation benefit payments to 

              claimants who met the new eligibility requirements, as enacted 

              in state law?.......................................................................................... 5
	
                                                                                                                        
         Limited data was available to demonstrate benefits paid to claimants 

         who met new eligibility requirements, and many states did not require 

         changes to state laws. .......................................................................................... 5
	
                                                                                                                             

Objective 2 — For states that have received incentive payments but have not yet 

              implemented UI modernization incentive provisions, what are the 

              states’ implementation plans, including projected costs, 

              timeframes and anticipated challenges? ........................................... 8
	
                                                                                                   
         Only four states took advantage of the delayed implementation 

         provisions of the Recovery Act, with moderate to substantial system and 

         procedure changes required to implement the changes in state law. ................... 8
	
                                                                                                 

Objective 3 — For states not applying for these modernization funds, why not? 10
	 
         States not applying for the UI modernization funds cite increased benefit 

         costs as the primary factor in not applying. ........................................................ 10
	
                                                                                                                  

Objective 4 — What is the status of the $7 billion of modernization funds 

              established by Congress for use by states with no repayment 

              requirement? ...................................................................................... 12
	
                                                                                                                     
         Of the approximately $4 billion that is reserved in the FUA for UI 

         modernization, approximately $1.3 billion is unlikely to be applied for................ 12
	
                                                                                                    

Objective 5 — What is the status of the $500 million administrative grants to 

              states?................................................................................................. 13
	
                                                                                                                          
         At least $399 million of the states’ funds remains unexpended, with a 

         significant number of states planning multi-year systems improvements. 

         Some states did not have plans in place for spending these funds. ................... 13
	
                                                                                                  

Recommendations ...................................................................................................... 15
	
                                                                                                                          



Exhibits                                                                                                                          
         Exhibit 1 Status of $7 Billion UI Modernization Incentive Payments ................... 19
	
                                                                                                   
                                                          Recovery Act: Unemployment Insurance Modernization
	
                                                                                Report No. 18-10-012-03-315 

                                                           Prepared by WithumSmith+Brown PC
                                  For the U. S. Department of Labor – Office of Inspector General

     Exhibit 2 States Not Applying for the One-Third or Two-Third Shares................ 21
	     
     Exhibit 3 Status of $500 Million Special Administrative Transfer ........................ 23
	
                                                                                                  

Appendices                                                                                                              
     Appendix A Background ..................................................................................... 27
	   
     Appendix B Objectives, Scope, Methodology, and Criteria ................................ 31
	                      
     Appendix C Acronyms and Abbreviations .......................................................... 33
	              
     Appendix D Employment and Training Administration Response to Draft 

                Report ............................................................................................. 35
	
                                                                                                                        




                                                   Recovery Act: Unemployment Insurance Modernization
                                                                         Report No. 18-10-012-03-315
                                                                                                          Prepared by WithumSmith+Brown PC
                                                                                 For the U. S. Department of Labor – Office of Inspector General
WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants




8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA                              September 30, 2010
301 585 7990 . fax 301.585.7975
www.withum.com
Additional Offices in New Jersey, New York
Pennsylvania, Florida and Colorado

                                                               Ms. Jane Oates
                                                               Assistant Secretary for Employment and Training
                                                                Employment and Training Administration
                                                               U.S. Department of Labor
                                                               200 Constitution Avenue, NW
                                                               Washington, D.C. 20210

                                                               The American Recovery and Reinvestment Act of 2009 (Recovery
                                                               Act) was passed to preserve and create jobs, promote economic
                                                               recovery, and assist those most impacted by the recession. The Act
                                                               set aside $7 billion from the Federal Unemployment Account (FUA)
                                                               in the Unemployment Trust Fund (UTF), to be used for
                                                               Unemployment Insurance (UI) incentive payments for states whose
                                                               unemployment compensation laws meet or are changed to meet
                                                               Recovery Act criteria intended to expand unemployment benefits
                                                               permanently. The Recovery Act also provided $500 million in
                                                               administrative grants to assist states with their unemployment
                                                               insurance operations.

                                                               Each state must apply to the Employment and Training
                                                               Administration (ETA) for its share of the incentive payments.
                                                               One-third of each state’s share is paid when DOL certifies the
                                                               state’s laws use a base period for computing unemployment claims
                                                               that includes the most recently completed calendar year or allows
                                                               for use of the most recent calendar quarter. The remaining
                                                               two-thirds is paid when DOL certifies the state’s laws to include at
                                                               least two of four Recovery Act requirements to pay unemployment
                                                               insurance under certain conditions involving part-time work,
                                                               compelling family reasons, training programs, and dependent’s
                                                               allowances.




                                                                                                      Recovery Act: Unemployment Insurance Modernization
	
                                                                                                       1                    Report No. 18-10-012-03-315 


A member of HLB International. A world-wide organization of accounting firms and business advisers.
                                                         Prepared by WithumSmith+Brown PC 

                                For the U. S. Department of Labor – Office of Inspector General 


Our audit objectives were to determine (1) if states that received UI modernization
incentive payments made unemployment compensation benefit payments to claimants
who met the new eligibility requirements, as enacted in state law; (2) if states that have
received incentive payments but have not yet implemented UI modernization incentive
provisions, have implementation plans, including projected costs, timeframes and
anticipated challenges; (3) why states did not apply for the modernization funds; (4) the
status of the $7 billion of modernization funds established by Congress for use by
states; and (5) the status of the $500 million in administrative grants to states.

The information in this report was developed by the DOL-OIG independent of ETA. The
DOL-OIG is legislatively independent and charged with performing independent audits
of DOL. WithumSmith+Brown (WSB), under contract with the DOL-OIG collected its
information directly from the heads of State Unemployment Insurance offices or their
designees in all 53 states and territories. WSB used structured interviews and data
collection instruments to perform our audit. The interviews were conducted in August
and September 2010, and included data available through July 31, 2010. We
supplemented the data we gathered from the states with publicly available data from
DOL’s website at www.doleta.gov/recovery/. As a result, information in our report does
not include nonpublic information which states may have provided to DOL.

WSB conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

We found states are unlikely to apply for $1.3 billion of the $7 billion in UI modernization
benefits. These states cited increased costs for benefit payments and required changes
to state laws as politically difficult. Also, states representing a total of $39 million of the
$500 million in administrative grant funds reported to us they did not have plans in place
to spend those funds. These states stated they do not have plans to use the funds for
the following reasons: significant challenges in procurement or state legislative approval
processes; additional state funds would be needed to implement desired changes; and
difficulties in identifying just how to spend the funds.

Most of the states receiving UI modernization payments under the new provisions of the
Recovery Act were not able to provide data regarding claimants’ payments. States that
could quantify benefits paid under the new provisions reported to us approximately
59,000 new claimants were paid $98 million.




                                             Recovery Act: Unemployment Insurance Modernization
	
                                              2                    Report No. 18-10-012-03-315 

                                                                 Prepared by WithumSmith+Brown PC 

                                        For the U. S. Department of Labor – Office of Inspector General 


Four states received incentive payments and delayed implementation of the one-third
share requirements, and two of the four states also delayed implementation of the two -
thirds share requirements. Under the provisions of the Recovery Act, states can delay
implementation of the changes to state law for up to 12 months. These states reported
moderate to substantial changes would need to be made to information systems,
policies and procedures, staff training, and outreach and communications. They also
said significant staff time would be required to implement the changes. No states
provided timelines, projected costs, or implementation plans to accomplish cited
changes.

States not applying for the modernization funds most often cited in response to our
survey questions, the cost of increased benefit payments as the reason for not applying.
These states also cited needed changes to state laws as politically difficult and
unpopular with their citizens. Of the 26 states that had not applied for some or all funds,
10 states are unlikely to or will not apply for them. States have until August 2011 to
apply for the incentive payments.

Of the $7 billion set-aside for this program, $3 billion was awarded to states, and the
states have told us about $2 billion of this amount has been used to supplement their UI
accounts and pay UI modernization benefits and program administration costs and the
remaining unallocated or reserved for administrative expenses. The remaining
$4 billion of the $7 billion will remain available until August 2011 for states that meet the
requirements of the Act. However, as of the time of our interviews, states reported to us
they are unlikely to apply for $1.3 billion of the remaining $4 billion, as follows:

Table 1: States Unlikely to Apply for at Least a Portion of Unemployment
          Modernization Funds and Amounts They Are Unlikely to Apply for in
          Terms of One-Third and Two-Thirds Shares
State                  Unlikely to Apply      Unlikely to Apply
                           for One-Third         for Two-Thirds
                                    Share                  Share            Total
Alabama                      $ 33,491,117           $ 66,982,234   $ 100,473,351
	
Arizona                        50,032,295           100,064,590       150,096,885
	
Florida                       148,091,839           296,183,677       444,275,516
	
Kentucky                       30,058,648             60,117,295       90,175,943
	
Louisiana                      32,795,110             65,590,221       98,385,331
	
Michigan                            (Note)          138,855,048       138,855,048
	
Missouri                       44,436,027             88,872,055      133,308,082
	
Utah                                (Note)            40,664,804       40,664,804
Virginia                            (Note)          125,635,366       125,635,366
Wyoming                         4,748,377              9,496,753       14,245,130
Total                       $343,653,413           $992,462,043    $1,336,115,456
Note: States that have applied for and received the one-third share.




                                                        Recovery Act: Unemployment Insurance Modernization
	
                                                         3                    Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


Of the $500 million given to states for administration of UI programs, about $78 million
has been spent, and at least $399 million remains unspent as of July 31, 2010. We
were not able to determine the status of the remaining $23 million. A majority of the
states responded to our survey and reported they plan to spend these funds to improve
UI systems and automation, with almost a third of the states reporting these funds
would be spent by June 2012 or later. Nine states that did not have plans on how or
when to spend these funds represented about $39 million of the $500 million. Another
three states representing $23 million of the funds did not provide an answer on how
they plan to spend the funds. The Recovery Act did not specify when the funds should
be spent.

To better ensure that $1 billion or more of Recovery Act funds are put to best use, we
recommend the Assistant Secretary for Employment and Training:

   •	 Keep Congress informed on the status of the unused funds, and as appropriate,
      make recommendations to the Secretary to work with Congress to reinstate
      those funds into the Federal Unemployment Account to help off-set the cost of
      borrowing; and

   •	 Request detailed spending plans from the states for the $500 million of
      administrative funds, and for those states without adequate plans, provide
      assistance, as appropriate, to help ensure these funds are spent as intended.

ETA RESPONSE

ETA provided comments advising against including state-specific responses to survey
questions in the report concerning the likelihood of states applying for incentive
payments because the information could change, and internal negotiations regarding
the funds could be disrupted by the public disclosure. ETA also responded that some
states that appeared highly unlikely to apply for an incentive payment have already
received incentive payments. ETA stated it strongly supports our recommendation that
unused funds become unrestricted in the FUA account, but recommends this occur on
October 1, 2011, as provided by the Recovery Act.

ETA’s comments are included in their entirety in Appendix D.

AUDITORS’ CONCLUSION

Given the unprecedented level of transparency called for in the Recovery Act, we
believe disclosure of state-specific information is necessary and appropriate. We
continue to believe the more than $1 billion in Recovery Act funds unlikely to be used by
states could be better used to off-set the cost borrowing to the government. We also
believe more timely reinstatement would improve federal accounting for these funds.




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            4                    Report No. 18-10-012-03-315 

                                                        Prepared by WithumSmith+Brown PC 

                               For the U. S. Department of Labor – Office of Inspector General 


RESULTS AND FINDINGS

Objective 1 — Did states that received UI modernization incentive payments make
              unemployment compensation benefit payments to claimants who
              met the new eligibility requirements, as enacted in state law?

       Limited data was available to demonstrate benefits paid to claimants who met
       new eligibility requirements, and many states did not require changes to state
       laws.

Most of the states receiving UI modernization payments under the new provisions of the
Recovery Act were not able to provide data regarding claimants’ payments. States that
could quantify benefits paid under the new provisions, reported approximately 59,000
new claimants were paid $98 million.

The Recovery Act provided $7 billion to be reserved in the FUA for transfer to the
accounts of states in the UTF for the purposes of making unemployment compensation
modernization incentive payments.

The maximum incentive payment allowable to any state is based on the ratio of that
state’s taxable wages to the total taxable wages for the preceding calendar year. For
each state’s maximum incentive payments, one-third shall be transferred to the state’s
account upon certification by DOL that the laws of the state meet the requirement of
using a base period that includes the most recently completed calendar year or provides
for an alternate base period (ABP) that uses a base period that includes the most recent
calendar quarter, for the purpose of determining eligibility.

The remainder (two-thirds share) shall be transferred to the state’s account upon
certification by DOL that its state laws include provisions to carry out at least two of the
following four:

   •	 Part-Time Work — An individual cannot be denied unemployment compensation
      (UC) under any state law provision relating to availability for work, active search
      for work, or refusal to accept work, solely because such individual is seeking only
      part-time work, except where a majority of the weeks of work in the individual’s
      base period do not include part-time work.

   •	 Compelling Family Reasons — An individual cannot be disqualified from UC for
      separating from employment due to compelling family reasons, including
      domestic violence, illness or disability of an immediate family member, the need
      to accompany a spouse to a place where it is impractical to commute due to a
      change in the spouse’s location of employment. This provision was
      subsequently amended to include sexual assault.




                                            Recovery Act: Unemployment Insurance Modernization
	
                                             5                    Report No. 18-10-012-03-315 

                                                                Prepared by WithumSmith+Brown PC 

                                       For the U. S. Department of Labor – Office of Inspector General 


      •	 Training Program — UC is payable to an individual who is unemployed and
         exhausted all rights to regular UC, and is enrolled and making satisfactory
         progress in an approved training program. The total amount of UC payable shall
         be equal to at least 26 times the individual’s average weekly benefit amount for
         the most recent benefit year.

      •	 Dependent’s Allowance — Dependent’s allowances are provided in an amount
         equal to at least $15 per dependent per week, with a maximum of not less than
         $50 for each week or 50% of the individual’s weekly benefit amount, whichever is
         less.

The Employment and Training Administration (ETA) issued policy guidance to the state
workforce agencies (Unemployment Insurance Program Letter 14-09) on
February 26, 2009, which provided application instructions and deadlines, further details
on the incentive payment provisions, and the amounts allocated to each state based on
the formula specified in the Recovery Act.

One-third Share

As of July 31, 2010, 36 states had received the one-third share of the modernization
incentive payments. Of these 36 states, 17 states (47%) did not require a change to its
UI laws in order to satisfy this requirement. Therefore, for these 17 states, no changes
in eligibility or in benefit payments occurred. As part of our survey, we requested states
to report the impact of the additional population served as a result of the changes in
their state law provisions. The following table summarizes the results of the one-third
share as reported by the states, for the states which required changes in their laws:

    Table 2: Impact on Benefit Payments Reported by States That Amended State
              Laws or Regulations to Receive 1/3 Share (See note)

    States Requiring       Minor                    Moderate        Substantial                  Not
    Changes           increases 1                  increases 2       increases 3        Determinable
                   19         12                            2                 2                    3
Note: Reported by 19 states.

We requested data from the states regarding the number of claimants served and the
amount of benefits paid through July 31, 2010, under the alternate base period. For the
states that were required to amend their state laws, nine states could not determine this
information. Ten states reported a total of approximately 35,000 more claimants and
$72 million in additional benefits paid.



1
  Less than 5% increase in total population served
2
  5% to 19% increase in total population served
3
  20% or greater increase in total population served

                                                       Recovery Act: Unemployment Insurance Modernization
	
                                                        6                    Report No. 18-10-012-03-315 

                                                                Prepared by WithumSmith+Brown PC 

                                       For the U. S. Department of Labor – Office of Inspector General 


Two-thirds Share
As of July 31, 2010, 27 states had also applied for and received the two-thirds share of
incentive payments, as follows:

    Table 3: Implemented or Existing Provisions Qualifying States for 2/3 Share
              (See note)
                                                                 Changes to State
                                                 Number of Law or Regulations
    Provisions Implemented for 2/3 Share              States              Required
    Part-Time Workers (PTW)                        20 states              16 states
    Compelling Family Reasons (CFR)                15 states              13 states
    Training Programs (TP)                         14 states              13 states
    Dependents Allowance (DA)                        5 states              2 states
Note: The 27 states that met the required two provisions.

As part of our survey, we requested states       to report the impact of the additional
population served as a result of the changes in their stat e laws for each of the new
provisions enacted. The fo llowing table s ummarizes the re sults of each provision a s
reported by the states, for the states which required changes in their laws:

    Table 4: Impact on Benefit Payments Reported by States That Amended State
              Laws or Regulations to Receive 2/3 Share
                   States                       Minor
                Requiring                   increases         Moderate     Substantial             Not         No
                                                      4
    Provision    Changes      No impact                     increases 5     increases 6   Determinable   Response
    PTW                16              6             4               1               1              2          2
    CFR                13                            9               1                              2          1
    TP                 13              1             6               1               1              3          1
    DA                  2              1                             1
	

In addition, we requested data on the number of claims paid and the amount of benefits
paid since enactment of each provision through July 31, 2010. The following table
presents information on the additional number of claimants served and benefits paid
based on changes to state laws for states and territories which required changes:




4
  Less than 5% increase in targeted population served
5
  5% to 19% increase in targeted population served
6
  20% or greater increase in targeted population served

                                                          Recovery Act: Unemployment Insurance Modernization
	
                                                           7                    Report No. 18-10-012-03-315 

                                                        Prepared by WithumSmith+Brown PC 

                               For the U. S. Department of Labor – Office of Inspector General 


 Table 5: Additional Number of Claimants Served and Benefits Paid for States
           Required to Change Laws or Regulations to Qualify for 2/3 Share
                     States       States         States Not                      Amount of
                  Requiring    Reporting       Determinable    Number of          Benefits
 Provision         Changes          Data    or Not Provided    Claimants      (in millions)
 PTW                     16             2                 14          194            $ 0.5
 CFR                     13             6                  7        2,285              10.0
 TP                      13             4                  9          437              12.7
 DA                       2             1                  1       20,700               2.1
 Total                                                             23,616             $25.3

We noted that for the states that did have to change their laws, some of the changes
were relatively minor which could have the effect of lessening the impact reported by
the states.

Objective 2 — For states that have received incentive payments but have not yet
              implemented UI modernization incentive provisions, what are the
              states’ implementation plans, including projected costs,
              timeframes and anticipated challenges?

       Only four states took advantage of the delayed implementation provisions of the
       Recovery Act, with moderate to substantial system and procedure changes
       required to implement the changes in state law.

Of the four states that delayed implementation of the effective date for the one-third
share, only two states also delayed implementation for the two-thirds share. Two of the
four states provided estimated administrative costs to implement these changes, while
the other two states did not conduct a formal estimate of the costs. The costs primarily
relate to increased staff time to make IT system changes. All four of the states
indicated the planned changes would be complete by the effective dates of the new
provisions.

In order to receive the one-third or two-thirds incentive payment, the Recovery Act
provides that a state must submit an application to the Department of Labor. If DOL
finds that the state law provisions (disregarding any provisions not currently in effect as
permanent law, or which are subject to discontinuation) meet the requirements of the
Act, the Secretary of Labor shall certify to the Secretary of Treasury to that effect,
together with a certification as to the amount of the incentive payment to be transferred
to the state’s account.

The Recovery Act also provides that for purposes of this provision, state law provisions,
which are to take effect within 12 months after the date of their certification, shall be
considered to be in effect as of the date of such certification. Therefore, a state can
delay up to 12 months the effective date of the changes to its state laws.


                                            Recovery Act: Unemployment Insurance Modernization
	
                                             8                    Report No. 18-10-012-03-315 

                                                                  Prepared by WithumSmith+Brown PC 

                                         For the U. S. Department of Labor – Office of Inspector General 


We noted that as of July 31, 2010, four states which passed laws and for which the
legislation had not yet taken effect, had received the one-third share, as follows:

 Table 6: States Receiving 1/3 Share Which Have Passed Laws with Pending
           Effective Dates
                                   Amount of One-Third      Effective Date of
 State                                           Share             Provisions
 South Carolina (See note)                 $32,486,497        January 1, 2011
 Nebraska                                  $14,541,923            July 1, 2011
 Maryland                                  $42,250,041          March 6, 2011
 Utah                                      $20,332,402        January 2, 2011
Note: Applied for the one-third and two-third share prior to July 31, 2010, but did not receive payment until after July
31, 2010.

All four of these states reported to us in our survey questions that moderate to
substantial changes need to be made to information systems, policies and procedures,
staff training, and outreach/communications to implement the new provisions. The
timeframe for implementation of changes to information systems ranged from 4 to 12
months. The costs to implement these changes were primarily based on staff time,
especially information technology staff, as well as hardware and software issues. Only
two of these four states provided estimated costs to implement these provisions, which
were reported as $250,000 and $1,252,215, respectively.

For the two-thirds share, we noted that as of July 31, 2010, two states had received the
two-thirds share but the legislation for both provisions had not yet taken effect. The two
states listed below chose to enact the minimum requirement of two provisions.

 Table 7: States Receiving 2/3 Share Which Have Passed Laws with Pending
           Effective Dates for Qualifying Provisions
                    Amount of
                   Two-Thirds                             Effective Date                            Effective Date
 State                 Share          Provision 1         of Provision 1        Provision 2         of Provision 2
                                         Part-time                                 Training
 Nebraska $29,083,846                        Work           July 1, 2011          Programs            July 1, 2011
                                         Part-time                                 Training
 Maryland        $84,500,083                 Work        March 1, 2011            Programs         March 6, 2011

For the Part-Time Work provision, Nebraska told us in response to our survey questions
that moderate changes are needed to its information systems, as well as staff training,
in order to implement the provisions. For the Training Program provision, Nebraska told
us substantial changes are needed to its information systems and moderate changes to
its outreach, publications, and communications. Nebraska estimated its administrative
costs to implement the Part-Time Work provision and Training Program provision to be
$216,000 and $12,000, respectively. Maryland did not develop a formal estimate of the
administrative costs to implement the Part-Time Work and Training Program provisions.

                                                          Recovery Act: Unemployment Insurance Modernization
	
                                                           9                    Report No. 18-10-012-03-315 

                                                                Prepared by WithumSmith+Brown PC 

                                       For the U. S. Department of Labor – Office of Inspector General 



Objective 3 — For states not applying for these modernization funds, why not?

         States not applying for the UI modernization funds cite increased benefit costs as
         the primary factor in not applying.

Twenty-six states have not applied for some or all of the UI modernization incentive
payments, totaling approximately $4 billion, and according to state officials, 10 of these
26 states are unlikely to, or definitely will not, apply for t hem, totaling $1.3 billion. For
the states not applying, the state officials said increased benefit costs was the dominant
factor, along with the changes to state laws being politically difficult or unpopular with
their citizens.

We queried the states that had not applied for the modernizati on funds to provide some
insight as to the reasons why not. Because states have until August 12, 2011, to submit
their application to the U.S. Department of Labor, we also inquired whether it was likely
the state would ultimately apply for these funds.

One-third Share
In order to be eligible for t he one-third share, states must utilize a base period, or add
an alternate base period, which uses the most recently completed calendar quarter
before the start of the benefit year, for purposes of determining eligibility for benefits. If
an alternate base period is used, then a person who is not eligible under the regular
base period could become eligible under the alternate base period. This has the effect
of expanding the pool of eligible beneficiaries, or at a minimum, accelerating the
payments of benefits to claimants who might not qualify until a future date, if at all. As of
July 31, 2010, there were 17 states that had not applied for the one-third share,
approximating $1.1 billion, as follows:

 Table 8: Probability States Will Apply for the 1/3 Share (See note)
                                                                                                1/3 Share
                                                                            1/3 Share             Amount
 Status as Reported by State Officials                                Number of States        (in billions)
 Definitely Will Not Apply                                                           2          $      .094
 Unlikely to Apply                                                                   5                 .249
 Somewhat Likely to Apply                                                            3                 .115
 Definitely Will Apply or Applied but Not Received                                   3                 .313
 No Response Provided                                                                4                 .317
 Total                                                                              17           $ 1.088
Note: The 17 States that have not applied for 1/3 share.

The seven states that will not apply or are unlikely to appl y include, as reported to us b y
state officials at the t ime of our survey questions, include 1) Alabama, 2) Arizona, 3)
Florida, 4) Kentucky, 5) Louisiana, 6) Missouri, and 7) Wyoming. Of these seven states,


                                                           Recovery Act: Unemployment Insurance Modernization
	
                                                            10                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


six states cited the costs of increased benefit payments as a substantial or dominant
factor. Other substantial or dominant factors cited included a) the states did not
consider the proposed changes necessary or desirable (two states); b) the state did not
view the Federal incentive process as necessary or desirable (one state); and c) the
states deemed the changes to be politically difficult or unpopular with citizens (three
states).

Two-thirds Share
As of July 31, 2010, there were 26 states that had not applied for, or had applied but not
yet received, the two-thirds share, approximating $2.8 billion, as follows:

Table 9: Probability States Will Apply for the 2/3 Share (See note)
                                                          2/3 Share   2/3 Share
                                                         Number of      Amount
Status as Reported by State Officials                        States (in billions)
Definitely Will Not Apply                                         3   $      .249
Unlikely to Apply                                                 7          .743
Somewhat Likely to Apply                                          5          .428
Very Likely to Apply                                              1          .098
Definitely Will Apply or Applied but Not Received                 6          .669
No Response Provided                                              4          .634
Total                                                            26   $ 2.821
Note: The 26 States that have not applied for 2/3 share.


The 10 states that will not apply or are unlikely to apply for the two-thirds share, as
reported to us at the time of our survey questions, include 1) Alabama, 2) Arizona, 3)
Florida, 4) Kentucky, 5) Louisiana, 6) Michigan, 7) Missouri, 8) Utah, 9) Virginia, and 10)
Wyoming. Three of these states, Michigan, Virginia and Utah, did apply for and receive
the one-third share. Of these 10 states, 5 states cited the costs of increas ed benefit
payments as a substantial to dominant factor, and 3 of these 5 states also cited that the
changes would be politically difficult or unpopular with citizens as a substantial factor.
The other 5 states did not provide a response as to the factors why they are unlikely to
apply.

Total Share
The total amounts for the one-third and two-thirds shares for states reporting they
definitely won’t apply or are unlikely to apply is $1.3 billion.




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            11                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


 Table 10: Total Amount of Funds Unlikely to be Claimed by States (in billions)
 Status                                    1/3 Share     2/3 Share          Total
 Definitely Will Not Apply                $     .094   $      .249        $ .343
 Unlikely to Apply                              .249          .743           .992
 Total                                    $     .343   $      .992        $ 1.335

Objective 4 — What is the status of the $7 billion of modernization funds
              established by Congress for use by states with no repayment
              requirement?

       Of the approximately $4 billion that is reserved in the FUA for UI modernization,
       approximately $1.3 billion is unlikely to be applied for.

Approximately $3 billion has been awarded to states, with approximately $2 billion spent
on benefit payments and the remaining unallocated or reserved for administrative
expenses. Approximately $4 billion of the $7 billion remains reserved for states to apply
by August 2011. Of this amount, we determined that $1.3 billion is unlikely to be
applied for, based on the information told to us by state officials during our structured
interview questions.

The Recovery Act provided that a transfer from the FUA of the UTF to the accounts of
states in the UTF be made if the states met the requirements in their state laws as
specified in the Recovery Act. The amount available for each state is calculated by
multiplying $7 billion times a ratio of the states taxable wages to the total taxable wages
for the prior year.

Any amounts reserved under this provision for which a certified application has not been
approved by DOL and forwarded to Treasury would be reverted back to the FUA and
become unrestricted as to use on September 2011. Applications must be submitted
before August 2011. Amounts in the FUA are used to provide loans to insolvent states.
As of July 31, 2010, the account balance in FUA was $3.9 billion.

As of July 31, 2010, approximately $3 billion has been awarded for the one-third and
two-thirds shares to 36 states (one-third share) and 27 states (one-third and two-thirds
shares). The following is the status of the $3 billion that has been awarded:

 Table 11: Status of UI Modernization Funds Provided to States (in billions)
 Status of Funds                                                          Amount
 Transferred to an Administration Allocation Accounts (Unspent)         $     .094
 Spent on Administration                                                      .045
 Spent on Benefit Payments                                                   2.046
 Unallocated                                                                  .795
 Total                                                                   $ 2.985
	


                                           Recovery Act: Unemployment Insurance Modernization
	
                                            12                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


Relative to the one-third share, $1.1 billion has not been awarded as of July 31, 2010.
Of this amount, approximately $343 million will not be or is unlikely to be applied for,
according to our survey responses. Of the $2.8 billion not awarded as of July 31, 2010,
for the two-thirds share, approximately $992 million will not be or is unlikely to be
applied for. Therefore, a total of $1.3 billion in incentive payments will not be or is
unlikely to be applied for based on our survey responses.

Objective 5 — What is the status of the $500 million administrative grants to
              states?

      At least $399 million of the states’ funds remains unexpended, with a significant
      number of states planning multi-year systems improvements. Some states did
      not have plans in place for spending these funds.

In addition to the UI modernization incentive payments, the Recovery Act also provided
a total of $500 million to the states as a “Special Transfer in Fiscal Year 2009 for
Administration.” These amounts were transferred from the Employment Security
Administration Account (ESAA) to the account of each state in the UTF in March 2009.
The amount for each state was determined by multiplying $500 million by the ratio of
that state’s taxable wages to the total taxable wages for the preceding calendar year.
The Recovery Act did not specify any time limitation on the use of the funds, nor were
the states required to apply for these funds with DOL.

We collected data from the 53 states and territories regarding the status and use of
these administrative funds as of July 31, 2010. Of the 50 states that reported data to
us, 25 states reported approximately $78 million (15.6%) of the $500 million
administrative grants have been expended, primarily for the improvement of UI
operations. Twenty-five of these 50 states reported that no funds had been expended.
The unexpended funds for these 50 states total approximately $399 million (79.8%).
The remaining three states did not respond to our data collection request, totaling
$23 million (4.6%). Therefore, we could not determine how much, in addition to the
$399 million, remains unexpended as of July 31, 2010.

The 50 states provided the following information on the amount of administrative funds
they spent:




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            13                   Report No. 18-10-012-03-315 

                                                                   Prepared by WithumSmith+Brown PC 

                                          For the U. S. Department of Labor – Office of Inspector General 




  Table 12: Expenditures Of Administrative Funds (See note)
                                                           Amount
  Purpose                                              (in millions)                          Percent
  Implementing provisions related to changes to laws        $ 19.4                               25%
  Outreach                                                       1.5                              2%
  Improvement of operations                                     53.0                             67%
  Reemployment services                                          2.4                              3%
  Other or not determinable                                      2.2                              3%
  Total                                                     $ 78.5                              100%
Note: Reported by 50 States.

We also inquired about the use of the remaining unexpended funds. Because there is
no time limit defined by law for expending these funds, many states have planned
multi-year system improvement projects. Of the 53 states, nine states did not have
specific plans for spending these funds, totaling $39 million. Additionally, three states
did not respond to our survey question for spending these funds, totaling an additional
$23 million. Two states had already spent all their funds. Of the remaining 39 states,
the reported plans included:

 Table 13: Planned Usage of Administrative Funds by Major Category (See note) 

 Category                                                       No. of States 

 Improve UI systems/ automation                                            25
 Staffing/personnel                                                         4
 Other                                                                     10
 Total                                                                     39
	
Note: Report by 39 States.

The estimated timeframes to spend the funds reported were:

  Table 14: Planned Usage of Administrative Funds by Timeframe (See note)
  Timeframe                                                     No. of States
  Already spent                                                             2
  No specific timeframe or not determinable                                22
  By June 30, 2011                                                          9
  By June 30, 2012                                                          7
  After June 30, 2012                                                      13
  Total                                                                    53
	
Note: Total states and territories reporting.

In response to our survey questions, 36 states told us that there were currently no
significant challenges or obstacles to spending these administrative funds. However,
7 states viewed the procurement process or state legislative approval process as a
significant challenge; 2 states reported staffing being assigned to other high-priority

                                                       Recovery Act: Unemployment Insurance Modernization
	
                                                        14                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC
                              For the U. S. Department of Labor – Office of Inspector General

projects as a significant challenge; 1 state reported the need to obtain additional funding
to implement their plans as a significant challenge; 6 states reported other significant
challenges; and 1 state didn’t provide a response.

As specified in the Recovery Act, these amounts can be used by the state for expenses
incurred for:
   •	 the administration of the provisions of its state law in carrying out the purposes
       relating to the incentive payments;
   •	 improved outreach to individuals who might be eligible for regular UC by virtue of
       any provisions of state law related to the incentive payments;
   •	 the improvement of unemployment benefit and unemployment tax operations,
       including responding to increased demand for unemployment compensation; and
   •	 staff-assisted reemployment services for unemployment compensation 

       claimants. 


We also noted there may be some confusion on the part of the states regarding how the
spending and status of these funds is reported to ETA. For example, only 27 states
identified the ETA Form 2112 as a report used to report the activity and status of these
funds, and responses were inconsistent as to which lines on which to report this data.
Some other states also responded that these funds are reported on ETA Form 9130
and ETA Form 8403.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

   1. Keep Congress informed on the status of the unused funds, and as appropriate,
      make recommendations to the Secretary to work with Congress to reinstate
      those funds into the Federal Unemployment Account to help offset the cost of
      borrowing.

   2. Request detailed spending plans from the states for the $500 million of
      administrative funds, and for those states without adequate plans, provide
      assistance, as appropriate, to help ensure these funds are spent as intended.

We appreciate the cooperation and courtesies that ETA and state unemployment
insurance personnel extended to WithumSmith+Brown during this audit.




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            15                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC 

    For the U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  16                   Report No. 18-10-012-03-315 

                                      Prepared by WithumSmith+Brown PC
             For the U. S. Department of Labor – Office of Inspector General




Exhibits 





                          Recovery Act: Unemployment Insurance Modernization
	
                           17                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  18                   Report No. 18-10-012-03-315 

                                                                           Prepared by WithumSmith+Brown PC 

                                                  For the U. S. Department of Labor – Office of Inspector General 


                                                                          Exhibit 1
Status of $7 Billion UI Modernization Incentive Payments as of July 31, 2010

                                               Amount Available                                               Amount Awarded
          State                    Total           1/3 Share               2/3 Share             Total          1/3 Share           2/3 Share
Alabama                      $      100,473,351 $     33,491,117        $    66,982,234
Alaska                               15,619,234        5,206,411             10,412,823     $    15,619,234    $      5,206,411 $     10,412,823
Arizona                             150,096,885       50,032,295            100,064,590
Arkansas                             59,969,332       19,989,777             39,979,555          59,969,332         19,989,777       39,979,555
California                          838,680,283     279,560,094             559,120,189
Colorado                            127,469,762       42,489,921             84,979,841         127,469,762         42,489,921       84,979,841
Connecticut                          87,811,338       29,270,446             58,540,892          87,811,338         29,270,446       58,540,892
Delaware                             21,868,398        7,289,466             14,578,932          21,868,398          7,289,466       14,578,932
District of Columbia                 27,632,982        9,210,994             18,421,988           9,210,994          9,210,994
Florida                             444,275,516     148,091,839             296,183,677
Georgia                             220,286,144       73,428,715            146,857,429         220,286,144         73,428,715      146,857,429
Hawaii                               30,526,725       10,175,575             20,351,150          30,526,725         10,175,575       20,351,150
Idaho                                32,260,831       10,753,610             21,507,221          32,260,831         10,753,610       21,507,221
Illinois                            301,150,687     100,383,562             200,767,125         301,150,687        100,383,562      200,767,125
Indiana                             148,498,323       49,499,441             98,998,882
Iowa                                 70,814,387       23,604,796             47,209,591          70,814,387         23,604,796       47,209,591
Kansas                               68,970,143       22,990,048             45,980,095          68,970,143         22,990,048       45,980,095
Kentucky                             90,175,943       30,058,648             60,117,295
Louisiana                            98,385,331       32,795,110             65,590,221
Maine                                28,231,263        9,410,421             18,820,842          28,231,263          9,410,421       18,820,842
Maryland                            126,750,124       42,250,041             84,500,083         126,750,124         42,250,041       84,500,083
Massachusetts                       162,683,341       54,227,780            108,455,561         162,683,341         54,227,780      108,455,561
Michigan                            208,282,572       69,427,524            138,855,048          69,427,524         69,427,524
Minnesota                           130,063,620       43,354,540             86,709,080         130,063,620         43,354,540       86,709,080
Mississippi                          56,136,656       18,712,219             37,424,437
Missouri                            133,308,082       44,436,027             88,872,055
Montana                              19,525,764        6,508,588             13,017,176          19,525,764          6,508,588       13,017,176
Nebraska                             43,625,769       14,541,923             29,083,846          43,625,769         14,541,923       29,083,846
Nevada                               76,937,412       25,645,804             51,291,608          76,937,412         25,645,804       51,291,608
New Hampshire                        31,401,220       10,467,073             20,934,147          31,401,220         10,467,073       20,934,147
New Jersey                          206,823,364       68,941,121            137,882,243         206,823,364         68,941,121      137,882,243
New Mexico                           39,022,582       13,007,527             26,015,055          39,022,582         13,007,527       26,015,055
New York                            412,742,107     137,580,702             275,161,405         412,742,107        137,580,702      275,161,405
North Carolina                      205,063,552       68,354,517            136,709,035
North Dakota                         14,552,205        4,850,735               9,701,470
Ohio                                264,508,588       88,169,529            176,339,059          88,169,529         88,169,529
Oklahoma                             75,886,483       25,295,494             50,590,989          75,886,483         25,295,494       50,590,989
Oregon                               85,574,641       28,524,880             57,049,761          85,574,641         28,524,880       57,049,761
Pennsylvania                        273,299,496       91,099,832            182,199,664
Puerto Rico                          41,247,756       13,749,252             27,498,504
Rhode Island**                       23,460,578        7,820,193             15,640,385           7,820,193          7,820,193
South Carolina***                    97,459,490       32,486,497             64,972,993
South Dakota                         17,647,634        5,882,545             11,765,089          17,647,634          5,882,545       11,765,089
Tennessee                           141,808,031       47,269,344             94,538,687         141,808,031         47,269,344       94,538,687
Texas                               555,671,344     185,223,781             370,447,563
Utah                                 60,997,206       20,332,402             40,664,804          20,332,402         20,332,402
Vermont                              13,917,898        4,639,299               9,278,599          4,639,299          4,639,299
Virgin Islands*                       2,002,911          667,637               1,335,274
Virginia                            188,453,049       62,817,683            125,635,366          62,817,683         62,817,683
Washington                          146,593,828       48,864,609             97,729,219          48,864,609         48,864,609
West Virginia                        33,176,630       11,058,877             22,117,753          11,058,877         11,058,877
Wisconsin                           133,934,079       44,644,693             89,289,386         133,934,079         44,644,693       89,289,386
Wyoming                              14,245,130        4,748,377               9,496,753
Total                        $    7,000,000,000 $ 2,333,333,331         $ 4,666,666,669     $3,091,745,525     $ 1,245,475,913 $ 1,846,269,612
Number of States                                                                                       36                  36              27

* - Applied for the one-third share prior to July 31, 2010, but did not receive payment until after July 31, 2010.
	
** - Applied for the two-thirds share prior to July 31, 2010, but did not receive payment until after July 31, 2010.
	
*** - Applied for one-third and two-thirds share prior to July 31, 2010, but did not receive payment until after July 31, 2010.
	




                                                                      Recovery Act: Unemployment Insurance Modernization
	
                                                                       19                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  20                   Report No. 18-10-012-03-315 

                                                                                                                                              Prepared by WithumSmith+Brown PC
                                                                                                                     For the U. S. Department of Labor – Office of Inspector General

                                                                                                                                                                                                     Exhibit 2
Probability That States Will Apply for One Third or Two-Thirds Share (See note)

                                                                     1/3 share                                                                                                2/3 share
                                                                                          Definitely will Apply                                                                                    Definitely will Apply
                       Definitely will    Unlikely to      Somewhat        Very Likely to  or Have Already      Unknown/No Definitely will not                   Somewhat Likely to Very Likely to  or Have Already            Unknown/No
          State         not apply           Apply        Likely to Apply      Apply             Applied          Response        apply         Unlikely to Apply      Apply             Apply            Applied                Response
Alabama               $                  $ 33,491,117    $           -     $         -    $             -     $           -     $           -     $    66,982,234   $           -     $          -     $            -      $            -
Arizona                   50,032,295                                                                                                100,064,590
California                                                                                     279,560,094                                                                                                 559,120,189
Florida                                   148,091,839                                                                                                 296,183,677
Indiana                                                                                                            49,499,441                                                                                                    98,998,882
Kentucky                                    30,058,648                                                                               60,117,295
Louisiana                                   32,795,110                                                                                                 65,590,221
Mississippi                                                  18,712,219                                                                                                  37,424,437
Missouri                  44,436,027                                                                                                 88,872,055
North Carolina                                                                                                     68,354,517                                                                                                   136,709,035
North Dakota                                                  4,850,735                                                                                                   9,701,470
Pennsylvania                                                 91,099,832                                                                                                 182,199,664
South Carolina                                                                                  32,486,497                                                                                                  64,972,993
Texas                                                                                                             185,223,781                                                                                                   370,447,563
Wyoming 4,                                    748,377                                                                                                   9,496,753
Puerto Rico                                                                                                        13,749,252                                                                                                    27,498,504
Virgin Islands                                                                                     667,637                                                                                                   1,335,274
Michigan*                                                                                                                                             138,855,048
Ohio                                                                                                                                                                    176,339,059
Rhode Island*                                                                                                                                                                                               15,640,385
Utah*                                                                                                                                                  40,664,804
Vermont                                                                                                                                                                                                      9,278,599
Virginia*                                                                                                                                             125,635,366
Washington                                                                                                                                                                                97,729,219
West Virginia                                                                                                                                                            22,117,753
Washington DC                                                                                                                                                                                               18,421,988
Total                 $   94,468,322     $ 249,185,091   $ 114,662,786     $         -    $    312,714,228    $ 316,826,991
                                                                                                                2               $    49,053,940   $ 743,408,103     $   427,782,383   $ 97,729,219     $   668,769,428     $ 633,653,984

Number of states             2                 5                 3               0                3                   4                3                 7               5                   1                6                    4

* - Has applied for and received the one-third share.
Note: For the 26 states that have not received the full share.




                                                                                                                                            Recovery Act: Unemployment Insurance Modernization
	
                                                                                                                                             21                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  22                   Report No. 18-10-012-03-315 

                                                                     Prepared by WithumSmith+Brown PC 

                                            For the U. S. Department of Labor – Office of Inspector General 


                                                                                                                                   Exhibit 3
Status of $500 Million Special Administrative Transfer as of July 31, 2010

                                               Expended/Unexpended Funds                           Plans to Expend Funds 

                                                                         Expense                                      No Response
                                                                       Information     Plans to Expend  No Plans to Provided in Plans
           State        Amount Awarded   Expended      Unexpended      not provided        Funds       Expend Funds to Expend Funds
 Alabama                     7,176,668    1,183,421        5,993,247                              -             5,993,247                        ‐
 Alaska                      1,115,660          -          1,115,660                        1,115,660                                            ‐
 Arizona                    10,721,206       54,198       10,667,008                       10,667,008                                            ‐
 Arkansas                    4,283,524      289,639        3,993,885                        3,993,885
 California                 59,905,736   12,300,000       47,605,736                       47,605,736
 Colorado                    9,104,983    3,066,889        6,038,094                              -                                       6,038,094
 Connecticut                 6,272,238    1,059,474        5,212,764                        5,212,764
 Delaware                    1,562,028      239,173        1,322,855                        1,322,855
 District of Columbia        1,973,784          -          1,973,784                        1,973,784
 Florida                    31,733,965          -         31,733,965                       31,733,965
 Georgia                    15,734,725    1,843,183       13,891,542                       13,891,542
 Hawaii                      2,180,480          -          2,180,480                              -             2,180,480
 Idaho                       2,304,345          -          2,304,345                        2,304,345
 Illinois                   21,510,763   19,022,043        2,488,720                        2,488,720
 Indiana                    10,607,023          -         10,607,023                       10,607,023
 Iowa                        5,058,171                                     5,058,171        5,058,171
 Kansas                      4,926,439    3,116,126        1,810,313                              -                                       1,810,313
 Kentucky                    6,441,139          -          6,441,139                        6,441,139
 Louisiana                   7,027,524          -          7,027,524                        7,027,524
 Maine                       2,016,519      424,500        1,592,019                        1,592,019
 Maryland                    9,053,580          -          9,053,580                              -             9,053,580
 Massachusetts              11,620,239          -         11,620,239                       11,620,239
 Michigan                   14,877,327      652,444       14,224,883                       14,224,883
 Minnesota                   9,290,259          -          9,290,259                        9,290,259
 Mississippi                 4,009,761          -          4,009,761                        4,009,761
 Missouri                    9,522,006          -          9,522,006                        9,522,006
 Montana                     1,394,697    1,394,697              -                                -
 Nebraska                    3,116,126          -          3,116,126                        3,116,126
 Nevada                      5,495,529    1,455,532        4,039,997                        4,039,997                                                 ‐
 New Hampshire               2,242,944    1,841,296          401,648                          401,648
 New Jersey                 14,773,097    3,501,581       11,271,516                       11,271,516                                                 ‐
 New Mexico                  2,787,327      940,054        1,847,273                        1,847,273
 New York                   29,481,579          -         29,481,579                       29,481,579
 North Carolina             14,647,397                                  14,647,397                -                                    14,647,397
 North Dakota                1,039,443       61,676          977,767                          977,767
 Ohio                       18,893,471   18,893,471              -                                -
 Oklahoma                    5,420,463          -          5,420,463                        5,420,463
 Oregon                      6,112,474          -          6,112,474                              -             6,112,474
 Pennsylvania               19,521,393    2,343,403       17,177,990                       17,177,990
 Puerto Rico                 2,946,268                                     2,946,268        2,946,268
 Rhode Island                1,675,756      276,600        1,399,156                        1,399,156
 South Carolina              6,961,392    2,694,743        4,266,649                        4,266,649
 South Dakota                1,260,545      491,450          769,095                              -                769,095
 Tennessee                  10,129,145          -         10,129,145                       10,129,145
 Texas                      39,690,810          -         39,690,810                       39,690,810
 Utah                        4,356,943          -          4,356,943                        4,356,943
 Vermont                       994,136          -            994,136                              -                994,136
 Virgin Islands                143,065          -            143,065                          143,065                                                 ‐
 Virginia                   13,460,932          -         13,460,932                       13,460,932                                                 ‐
 Washington                 10,470,988          -         10,470,988                              -           10,470,988
 West Virginia               2,369,759       87,814        2,281,945                              -             2,281,945
 Wisconsin                   9,566,720      780,030        8,786,690                        8,786,690
 Wyoming                     1,017,509          -          1,017,509                              -             1,017,509
 Total                     500,000,000   78,013,437      399,334,727    22,651,836        360,617,305         38,873,454         22,495,804


                                                             Recovery Act: Unemployment Insurance Modernization
	
                                                              23                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  24                   Report No. 18-10-012-03-315 

                                        Prepared by WithumSmith+Brown PC
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





                            Recovery Act: Unemployment Insurance Modernization
	
                             25                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC 

    For the U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  26                   Report No. 18-10-012-03-315 

                                                               Prepared by WithumSmith+Brown PC 

                                      For the U. S. Department of Labor – Office of Inspector General 


                                                                                                Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of August 19, 2010, Congress provided $70.8 billion to DOL (See
Table 15 below).

    Table 15: Department of Labor Recovery Act Funding, as of August 19, 2010
                                                          Amount a
    Program                                            (in millions)    Percent
    Unemployment Insurance                                  $65,996        93.17
    Training and Employment Services                           3,950        5.58
    State Unemployment Insurance and Employment
    Service Operations                                           400        0.56
    Community Service Employment for Older Americans             120        0.17
    National Emergency Grants for Health Insurance
    Coverage                                                      40        0.06
    Job Corps                                                    250        0.35
    Departmental Management                                       80        0.11
    Total                                                  $70,836b       100.00
a
  – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance
Coverage” were obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance” amount
was provided by the Office of the Assistant Secretary for Administration and Management, and includes amounts
made available for Federal and State Extended Benefits, Extension of Emergency Unemployment Compensation,
and Federal Additional Unemployment Compensation programs. The National Emergency Grants for Health
Insurance Coverage amounts were adjusted in United States Public Law 111-226 (HR1586).
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

The UI program is a Federal-State entitlement program, which provides benefits to
eligible workers who are unemployed through no fault of their own. The program was
created by the Social Security Act of 1935. States collect UI taxes from employers and
deposit the money into the UTF in the U.S. Treasury until they need to draw it down to
pay benefits to qualified claimants. In addition, pursuant to the Federal Unemployment
Tax Act a federal tax is levied on covered employers at a current rate of 6.2 percent on
wages up to $7,000 a year paid to an employee. The law, however, provides a credit
against federal tax liability of up to 5.4 percent to employers who pay state taxes timely
under an approved state UC program. DOL funds State Workforce Agencies (SWAs),
which administer the UI program, through grant agreements. These grant agreements
are intended to ensure that SWAs both administer the UI program efficiently and comply
with Federal laws and regulations.

State law defines who qualifies for UI benefits; therefore eligibility varies by state. For
example, some states will not pay UI benefits to someone who left a job to care for an ill



                                                      Recovery Act: Unemployment Insurance Modernization
	
                                                       27                   Report No. 18-10-012-03-315 

                                                        Prepared by WithumSmith+Brown PC 

                               For the U. S. Department of Labor – Office of Inspector General 


family member, or to an individual enrolled in training for certain high-demand
occupations in a growing field like health care.

If eligible, an unemployed worker may collect a maximum amount of UI, based on
earnings in a specific period of time before their job loss. This is referred to as the “base
period.” Certain groups of workers (e.g., younger workers, retirees returning to the
workforce) may not qualify for UI because they have not been employed long enough to
meet the “base period” in their states.

The Recovery Act provided $7 billion to be reserved in the FUA for transfer to the
accounts of states in the UTF for the purposes of making unemployment compensation
modernization incentive payments.

The maximum incentive payment allowable to any state is based on the ratio of that
state’s taxable wages to the total taxable wages for the preceding calendar year. For
each state’s maximum incentive payments, one-third shall be transferred to the state’s
account upon certification by DOL that the laws of the state meet the requirement of
using a base period that includes the most recently completed calendar year or provides
for an alternate base period that uses a base period that includes the most recent
calendar quarter, for the purpose of determining eligibility.

The remainder (two-thirds share) shall be transferred to the state’s account upon
certification by DOL that its state laws include provisions to carry out at least two of the
following four:

   •	 Part-Time Work — An individual cannot be denied UC under any state law
      provision relating to availability for work, active search for work, or refusal to
      accept work, solely because such individual is seeking only part-time work,
      except where a majority of the weeks of work in the individual’s base period do
      not include part-time work.

   •	 Compelling Family Reasons — An individual cannot be disqualified from UC for
      separating from employment due to compelling family reasons, including
      domestic violence, illness or disability of an immediate family member, the need
      to accompany a spouse to a place where it is impractical to commute due to a
      change in the spouse’s location of employment. This provision was
      subsequently amended to include sexual assault.

   •	 Training Program — UC is payable to an individual who is unemployed and
      exhausted all rights to regular UC, and is enrolled and making satisfactory
      progress in an approved training program. The total amount of UC payable shall
      be equal to at least 26 times the individual’s average weekly benefit amount for
      the most recent benefit year.




                                            Recovery Act: Unemployment Insurance Modernization
	
                                             28                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


   •	 Dependent’s Allowance — Dependent’s allowances are provided in an amount
      equal to at least $15 per dependent per week, with a maximum of not less than
      $50 for each week or 50% of the individual’s weekly benefit amount, whichever is
      less.

In addition to the UI modernization incentive payments, the Recovery Act also provided
a total of $500 million to the states as a “Special Transfer in Fiscal Year 2009 for
Administration.” These amounts were transferred from the Employment Security
Administration Account (ESAA) to the account of each state in the UTF in March 2009.
The amount for each state was determined by multiplying $500 million by the same ratio
as described on page 20 for the incentive payments, which is ratio of that state’s taxable
wages to the total taxable wages for the preceding calendar year.

ETA issued policy guidance to the state workforce agencies (Unemployment Insurance
Program Letter 14-09) on February 26, 2009, which provided application instructions
and deadlines, further details on the incentive payment provisions, and the amounts
allocated to each state based on the formula specified in the Recovery Act.




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            29                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC 

    For the U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  30                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

The objectives of our audit were to determine:

   1. Did states that received UI modernization incentive payments make
      unemployment compensation benefit payments to claimants who met the new
      eligibility requirements, as enacted in state law?

   2. For states that have received incentive payments but have not yet implemented
      UI modernization incentive provisions, what are the states’ implementation plans,
      including projected costs, timeframes and anticipated challenges?

   3. For states not applying for these modernization funds, why not?

   4. What is the status of the $7 billion of modernization funds established by 

      Congress for use by states with no repayment requirement? 


   5. What is the status of the $500 million administrative grants to states?

Scope

Our performance audit covers the period from February 17, 2009 (the enactment of the
Recovery Act) through September 30, 2010. We conducted our fieldwork at the ETA
National Office in Washington, D.C., at a pilot state visit in Baltimore, Maryland, and
through phone interviews and data collection instruments with all 53 states and
territories administering the UI program. Our performance audit was not designed to,
and we did not, perform a financial audit of the amounts obligated or expended at any of
the states or territories.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act
Title II, which provides special transfers for unemployment compensation modernization
funds to the states and territories and a special transfer for administration. We also

                                           Recovery Act: Unemployment Insurance Modernization
	
                                            31                   Report No. 18-10-012-03-315 

                                                       Prepared by WithumSmith+Brown PC 

                              For the U. S. Department of Labor – Office of Inspector General 


conducted interviews with ETA officials from the Office of Unemployment Insurance and
reviewed implementation guidance including UIPL 14-09 and other documentation. The
information in this report was developed by the DOL-OIG independent of ETA. The
DOL-OIG is legislatively charged with performing independent audits of DOL. WSB,
under contract with the DOL-OIG, collected its information directly from the heads of
State Unemployment Insurance offices or their designees in all 53 states and territories.
WSB used structured interviews and data collection instruments to perform our audit.
The interviews were conducted in August and September 2010, and included data
available through July 31, 2010. We supplemented the data we gathered from the
states with publicly available data from DOL’s website at www.doleta.gov/recovery/. As
a result, information in our report did not include nonpublic information which states may
have provided to DOL.

We also obtained information from the Bureau of Public Debt website relating to the
status of the Unemployment Trust Fund.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations, and other requirements. For this assignment, we obtained
an understanding of the ETA’s process for evaluating state applications submitted for
the UI modernization incentive payments. The testing of internal controls over this
process was not determined to be significant to our audit objectives.

Criteria

We used the following criteria to accomplish our audit:

   •	 American Recovery and Reinvestment Act of 2009, dated February 17, 2009

   •	 Social Security Act of 1935 (42 U.S.C. 1103) (42 U.S.C. 1321 to 1324)

   •	 Federal-State Extended Unemployment Compensation Act of 1970 (26 U.SC.
      3304 note)

   •	 Federal Unemployment Tax Act

   •	 Unemployment Insurance Program Letter 14-09




                                           Recovery Act: Unemployment Insurance Modernization
	
                                            32                   Report No. 18-10-012-03-315 

                                                   Prepared by WithumSmith+Brown PC
                          For the U. S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

ABP           Alternate Base Period

ARRA          American Recovery and Reinvestment Act of 2009

CFR           Compelling Family Reasons

DA            Dependents Allowance

DOL           Department of Labor

ESAA         Employment Security Administration Account

ETA           Employment and Training Administration

FUA           Federal Unemployment Account

OIG           Office of Inspector General

OUI           Office of Unemployment Insurance

PTW           Part Time Work

SSA           Social Security Act

SWA           State Workforce Agency

TP           Training Program

UC           Unemployment Compensation

UI           Unemployment Insurance/Unemployment Compensation

UIPL         Unemployment Insurance Program Letter

UTF          Unemployment Trust Fund

WSB          WithumSmith+Brown, PC




                                       Recovery Act: Unemployment Insurance Modernization
	
                                        33                   Report No. 18-10-012-03-315 

                             Prepared by WithumSmith+Brown PC 

    For the U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                 Recovery Act: Unemployment Insurance Modernization
	
                  34                   Report No. 18-10-012-03-315 

                                                  Prepared by WithumSmith+Brown PC 

                         For the U. S. Department of Labor – Office of Inspector General 


                                                                         Appendix D
Employment and Training Administration Response to Draft Report




                                      Recovery Act: Unemployment Insurance Modernization
	
                                       35                   Report No. 18-10-012-03-315 

                            Prepared by WithumSmith+Brown PC
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                Recovery Act: Unemployment Insurance Modernization
	
                 36                   Report No. 18-10-012-03-315 

TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/       hotlineform.htm
Email: hotline@         oig.dol.gov

Telephone:  1-800-347-3756
202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
 Room                S-5506
              Washington, D.C. 20210
